                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Nutrient Pollution: EPA Needs to
                     Work With States to Develop
                     Strategies for Monitoring the
                     Impact of State Activities on the
                     Gulf of Mexico Hypoxic Zone

                     Report No. 14-P-0348               September 3, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Dan Engelberg
                                                     Julie Hamann
                                                     Fred Light
                                                     Jayne Lilienfeld-Jones
                                                     Tim Roach
                                                     Genevieve Borg Soule




Abbreviations

CWA            Clean Water Act
EPA            U.S. Environmental Protection Agency
GMPO           Gulf of Mexico Program Office
MARB           Mississippi-Atchafalaya River Basin
NPDES          National Pollutant Discharge Elimination System
USGS           United States Geological Survey


Cover image: The Mississippi-Atchafalaya River Basin and the hypoxic zone in the
             Gulf of Mexico (Map courtesy of the Mississippi River Gulf of Mexico
             Watershed Nutrient Task Force).


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                                                                                                        14-P-0348
                        U.S. Environmental Protection Agency                                     September 3, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review                 Nutrient Pollution: EPA Needs to Work With
We sought to determine steps the
                                       States to Develop Strategies for Monitoring the
U.S. Environmental Protection          Impact of State Activities on the Gulf of Mexico
Agency (EPA) and states in the         Hypoxic Zone
Mississippi River Watershed are
taking to reduce nutrients that
contribute to the Gulf of Mexico        What We Found
hypoxic zone.
                                       The EPA is working to reduce the size of the       The EPA lacks
Hypoxia is the term used to            Gulf of Mexico hypoxic zone principally by         necessary data to
describe an area with low oxygen,      encouraging states to develop and implement        determine the impact
which results in conditions adverse    nutrient reduction strategies. This approach       of state nutrient
to most aquatic life. The hypoxic      has some promising aspects that may result in      reduction strategies
zone in the Gulf of Mexico forms       positive effects to local waterways. States        on the Gulf of Mexico
                                       have developed partnerships and have               hypoxic zone.
every summer as a result of excess
nutrients that flow from the 31        identified priority watersheds.
states and two Canadian provinces
of the Mississippi-Atchafalaya         At the time of our review in early 2014, most of the MARB states had not
River Basin (MARB), and seasonal       completed nutrient reduction strategies. In addition, few of the states in
stratification of gulf waters. The     our sample had committed to specific reduction targets or timelines. Some
5-year average size of the hypoxic     states have expressed concern over their limited ability to monitor water
zone is largely unchanged since        quality and measure the progress of the strategies. Without this
1994, at approximately 15,000          information, the EPA will be unable to determine the level of progress
square kilometers. According to the    toward achieving basin-wide pollution reduction goals.
United States Geological Survey,
agricultural sources contribute         Recommendation and Planned Agency Corrective Actions
more than 70 percent of the
nutrients that enter the Gulf of       We recommend that the Assistant Administrator for Water work with state
Mexico, and an estimated               and federal Task Force members in the Mississippi River Watershed to
11.6 million metric tons of nitrogen   develop and enhance monitoring and assessment systems that will track
are added to the MARB each year.       the environmental results of state nutrient reduction activities, including
                                       their contribution to reducing the size of the Gulf of Mexico hypoxic zone.
This report addresses the
following EPA goals or                 The Office of Water agreed with our recommendation and presented
cross-agency strategies:               acceptable corrective actions that address it. This recommendation is
                                       resolved based on the EPA’s response and a subsequent meeting to
  Protecting America’s waters.        discuss the Office of Water comments.
  Launching a new era of state,
   tribal, local and international
   partnerships.

Send all inquiries to our public
affairs office at (202) 566-2391
or visit www.epa.gov/oig.

The full report is at:
www.epa.gov/oig/reports/2014/
20140903-14-P-0348.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                   THE INSPECTOR GENERAL




                                           September 3, 2014

MEMORANDUM

SUBJECT:       Nutrient Pollution: EPA Needs to Work With States to Develop Strategies for Monitoring
               the Impact of State Activities on the Gulf of Mexico Hypoxic Zone
               Report No. 14-P-0348

FROM:          Arthur A. Elkins Jr.

TO:            Kenneth J. Kopocis, Deputy Assistant Administrator
               Office of Water

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility for implementing the audit recommendations included in
this report is the Office of Water.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
Nutrient Pollution: EPA Needs to Work With State to                                                                       14-P-0348
Develop Strategies for Monitoring the Impact of
State Activities on the Gulf of Mexico Hypoxic Zone



                                   Table of Contents

 Chapters
   1     Introduction .....................................................................................................      1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Responsible Office .....................................................................................        5
                 Scope and Methodology ............................................................................              6
                 Prior Audit Coverage..................................................................................          6

   2     State Strategies Need Measurement Systems ...............................................                               8

                 Reducing Nutrients in the MARB Is a Significant Challenge ......................                                8
                 State Nutrient Reduction Strategies Have Been Slow to Develop
                    and Are Missing Essential Components ...............................................                          9
                 State Nutrient Reduction Strategies Have Promising Aspects ....................                                 12
                 State Strategies’ Emphasis on Local Waterways Needs to be
                    Augmented with a Focus on the Larger Watershed ..............................                                12
                 Conclusions ...............................................................................................     13
                 Recommendation ......................................................................................           13
                 Agency Comments and OIG Evaluation .....................................................                        13

   Status of Recommendation and Potential Monetary Benefits ...............................                                      15



 Appendices
   A     Office of Water Response to Draft Report ......................................................                         16

   B     Distribution .......................................................................................................    19
                                   Chapter 1
                                   Introduction
Purpose
            The purpose of this review was to determine the steps the U.S. Environmental
            Protection Agency (EPA) and states in the Mississippi River Watershed are taking
            to reduce nutrients that contribute to the Gulf of Mexico hypoxic zone.

Background
            Nutrient pollution, or excess concentrations of nitrogen and phosphorous, of the
            nation’s waters is one of America’s most widespread, costly and challenging
            environmental problems. According to the EPA, half of the streams in the United
            States have medium to high levels of nitrogen and phosphorous. Nutrient pollution
            comes from a combination of sources, including agriculture, municipalities and
            industrial activities. High concentrations of nutrients in surface water stimulate an
            overproduction of algae. As the algae die off, the decomposition process consumes
            dissolved oxygen from the water column, creating conditions adverse to most
            aquatic life. Hypoxia is the term used to describe an area with very low oxygen.
            Ultimately, hypoxia causes a severe decrease in marine life and may affect species
            that rely on marine organisms for food.

            In addition to damaging marine life, hypoxia is a threat to human health. A harmful
            algal bloom in Lake Erie in August 2014 shut down the local water treatment
            facility, which left nearly 500,000 people in Toledo, Ohio without access to safe
            drinking water. According to a water notice issued by the City of Toledo, the algal
            toxins may cause adverse health effects. Symptoms range from diarrhea, vomiting,
            nausea, and numbness, to liver damage. According to the Ohio Lake Erie
            Phosphorous Task Force, the hazardous algal bloom is due to phosphorous from the
            Maumee River, which drains agricultural lands in Ohio and Indiana before
            discharging into Lake Erie. The EPA considers effluent from sewage treatment
            plants as a source of excess nutrients. While the most recent instance, this is not the
            first time that nutrient pollution affected drinking water sources. For example, In
            May, 2013 the Des Moines Iowa Water Works struggled to clean nitrates from
            water it supplies to its customers as a result of polluted runoff from farms.

            Hypoxia is also a significant problem on America’s Gulf Coast. The northern
            Gulf of Mexico hypoxic zone refers to an area along the Louisiana and Texas
            coasts and below the mouth of the Mississippi River. This hypoxic zone was first
            observed in 1972. It is the largest area of hypoxia in the United States and the
            second largest in the world. The long-term average size of the hypoxic zone is
            approximately 15,000 square kilometers (or 5,791miles) or roughly the size of
            Connecticut.


14-P-0348                                                                                       1
                 The hypoxic zone forms every summer as a result of excess nutrients that flow
                 from the 31 states and two Canadian provinces of the Mississippi-Atchafalaya
                 River Basin (MARB). According to the United States Geological Survey (USGS),
                 agricultural sources contribute more than 70 percent of the nutrients that enter the
                 Gulf of Mexico. The USGS also estimates that 11.6 million metric tons of
                 nitrogen are added to the MARB each year; over half is from commercial
                 fertilizer used for agriculture. The influx of nutrients and the resulting hypoxic
                 zone negatively impact the Gulf’s seafood industry, which produces one-third of
                 the nation’s seafood. The National Oceanic and Atmospheric Administration
                 estimates the fishery resources of the Gulf are among the most valuable in the
                 United States, generating $2.8 billion annually. Further, hypoxia leads to habitat
                 loss, a decrease in biodiversity, and the alteration of the function and structure of
                 the coastal ecosystem.

                 The 5-year average size of the hypoxic zone is largely unchanged since 1994 at
                 15,000 square kilometers (See Figure 1), with no sustained headway toward a
                 5,000 square kilometer goal set in 2001 by the Mississippi River/Gulf of Mexico
                 Watershed Nutrient Task Force (Task Force) 1. In 2007, the EPA’s Science
                 Advisory Board (SAB) reported that the goal was not achievable by 2015. To
                 reduce the size of the hypoxic zone, the SAB recommended that nitrogen and
                 phosphorous flux (or "loads") in rivers and streams in the MARB be reduced by
                 45 percent. In the 2008 Action Plan, the Task Force agreed with the SAB’s
                 conclusion regarding the 2015 goal, as well as acknowledging that the 45 percent
                 reduction may be necessary.

                 Figure 1: Five-year average size of hypoxic zone substantially unchanged over the
                 last 20 years

                                                                  Size of Gulf Hypoxia
                                        25,000

                                        20,000                                                            Size of
                   Kilometers Squared




                                                                                                          Hypoxic Zone
                                        15,000
                                                                                                          5 year
                                        10,000                                                            average
                                                                                                          Goal
                                         5,000

                                            0
                                                 1994 1996 1998 2000 2002 2004 2006 2008 2010 2012 2014
                 Source: OIG analysis of data from the Louisiana Universities Marine Consortium.




1
  The federal members are the U.S. Army Corps of Engineers, U.S. Department of Agriculture, U.S. Department of
the Interior, National Oceanic and Atmospheric Administration, and the EPA. State members are Arkansas, Illinois,
Indiana, Iowa, Kentucky, Louisiana, Minnesota, Mississippi, Missouri, Ohio, Tennessee and Wisconsin.


14-P-0348                                                                                                                2
            The Clean Water Act
            The Clean Water Act (CWA) sets a national goal that all waters of the United
            States be fishable and swimmable. The process for achieving this goal involves
            multiple steps. These steps include establishing water quality standards,
            conducting monitoring, identifying “impaired waters,” and developing a total
            maximum daily load (TMDL) (see Figure 2). The EPA and states can control
            point sources of pollution through issuing National Pollutant Discharge
            Elimination System (NPDES) permits. The states may obtain authority from the
            EPA to issue NPDES permits directly to facilities. To date, 46 states have
            obtained full or partial NPDES program authority.

            Figure 2: Improving water quality through the CWA




            Source: Adapted from EPA training module, Understanding TMDLs.


            CWA Section 303(c)(2)(A) requires states to establish designated uses for
            waterbodies and adopt water quality criteria that are protective of those uses.
            Consideration for use and value for waterbodies includes public water supplies,
            propagation of fish and wildlife, recreation, agricultural, industry, and navigation.
            Under Section 303(d), states are required to develop lists of impaired waters. The
            EPA describes these waters as “too polluted or otherwise degraded to meet the
            water quality standards set by states.”

            The law requires that the states establish priority rankings and develop a TMDL
            for these waters. A TMDL is a calculation of the maximum amount of a pollutant
            that a waterbody can receive and still safely meet water quality standards. CWA


14-P-0348                                                                                       3
                   Section 402, NPDES, regulates industrial, municipal and other point sources that
                   discharge into waters of the United States. Facilities must obtain permits if their
                   discharges go directly to surface waters. In contrast to the NPDES permit
                   program, which includes regulatory controls over point sources, there are no
                   required regulatory controls of nonpoint source discharges in the CWA.

                   EPA’s Approach to Reduce the Gulf of Mexico Hypoxic Zone

                   The EPA’s approach to reduce the Gulf hypoxic zone is based upon the Task
                   Force states developing and implementing nutrient reduction strategies. The Task
                   Force first encouraged this in the 2008 Action Plan where it noted that “no single
                   approach to nutrient reduction would be effective in every state.” In 2011, the
                   EPA published a memo entitled Working in Partnership with States to Address
                   Phosphorus and Nitrogen Pollution through Use of a Framework for State
                   Nutrient Reductions (the Nutrient Framework memo), which is a state-based
                   strategy to reduce nutrient pollution nationwide. The EPA is assisting states in
                   developing these strategies.

                   The Task Force is directed by a federal co-chair and a state co-chair. The current
                   co-chairs are EPA (represented by the Assistant Administrator of the Office of
                   Water) and the State of Iowa (represented by Iowa's Secretary of Agriculture).
                   Established in 1997, the Task Force's role is to provide executive-level direction
                   and support for coordinating the actions of participating organizations' work on
                   nutrient management within the Mississippi River/Gulf of Mexico Watershed.2
                   The Task Force members are involved in a variety of activities aimed at reducing
                   nitrogen and phosphorus pollution to the Gulf of Mexico. Some of these activities
                   include monitoring, modeling, outreach and education, and financial and technical
                   assistance.

                   The Task Force issued Action Plans in 2001 and 2008. Each of these plans laid
                   out 11 actions needed for reducing and controlling hypoxia in the Gulf of Mexico.
                   The 2008 Action Plan called upon each of the 12 Task Force-member states to
                   develop nutrient reduction strategies by the end of 2013. Promoting state adoption
                   of these strategies is a key component of the Task Force’s approach for
                   decreasing the size of the hypoxic zone. Action Item #1 in the 2008 Action Plan
                   states:

                   “Complete and implement comprehensive nitrogen and phosphorus
                   reduction strategies for states within the Mississippi/Atchafalaya River
                   Basin encompassing watersheds with significant contributions of nitrogen
                   and phosphorus to the surface waters of the Mississippi/Atchafalaya River
                   Basin, and ultimately to the Gulf of Mexico.” 3



2
    Charter of the Mississippi River/Gulf of Mexico Watershed Nutrient Task Force, May 1998.
3
    Mississippi River/Gulf of Mexico Watershed Nutrient Task Force Gulf Hypoxia Action Plan 2008, page 32.


14-P-0348                                                                                                    4
                 The Task Force issued Reassessment 2013: Assessing Progress Made Since 2008,
                 which reports details on state program developments since implementing the 2008
                 Action Plan. That same year the Task Force also released Looking Forward: The
                 Strategy of Federal Members of the Hypoxia Task Force. The primary objective
                 of this strategy “is to provide focused and effective support for the development,
                 refinement, and implementation of state nutrient reduction strategies.” The report
                 describes federal efforts to support the state strategies. These efforts include
                 providing additional scientific and technical assistance, expanding education and
                 outreach on nutrient pollution, and working with landowners to foster voluntary
                 conservation commitments.
                 In 2011, the EPA's Office of Water                     Eight Framework Elements
                                            4                1. Prioritize watersheds on a statewide basis
                 released a memorandum reaffirming              for nitrogen and phosphorus loading
                 EPA's commitment to partnering                 reductions.
                 with states to accelerate reduction of      2. Set watershed load reduction goals based
                 nitrogen and phosphorous loadings in 3. upon          best available information.
                                                                Ensure effectiveness of point source permits
                 the nation’s waterways. The Office             in targeted/priority sub-watersheds for:
                 of Water established a series of               wastewater treatment facilities,
                                                                Concentrated Animal Feeding Operations
                 recommended elements of a                      and urban stormwater sources.
                 framework to reduce nutrient                4. Agricultural Areas.
                 pollution through state nutrient            5. Storm water and Septic systems.
                                                             6. Accountability and verification measures
                 reduction strategies. The strategies        7. Annual public reporting of implementation
                 encourage collaboration between                activities and biannual reporting of load
                 multiple levels of stakeholders                reductions and environmental impacts
                                                                associated with each management activity in
                 including state and federal                    targeted watersheds.
                 environmental and agricultural              8. Develop work plan and schedule for numeric
                 agencies and private landowners to             criteria development.
                 achieve nutrient reductions in local
                 waterways. Currently, this eight element approach for developing state nutrient
                 reduction strategies is a major part of the Task Force’s strategy for reducing the
                 Gulf hypoxic zone. States are encouraged to use this framework to develop and
                 implement their individual reduction strategies.5

Responsible Office
                 The EPA’s Office of Water is responsible for implementing the CWA. It manages
                 EPA programs to achieve the CWA goal that the nation’s waters should be
                 fishable and swimmable. The Office of Water provides guidance, specifies
                 scientific methods and data collection requirements, performs oversight and
                 facilitates communication. The office helps the states and tribes to build capacity,
                 and water programs can be delegated to them for implementation. The effort to
                 reduce nutrients nationally is a priority for the Office of Water.


4
  Working in Partnership with States to Address Phosphorus and Nitrogen Pollution through Use of a Framework
for State Nutrient Reductions, EPA Office of Water, March 16, 2011.
5
  Refer to EPA’s Mississippi River Gulf of Mexico Watershed Nutrient Task Force Website for links to state
nutrient reduction strategies (http://water.epa.gov/type/watersheds/named/msbasin/nutrient_strategies.cfm).


14-P-0348                                                                                                      5
Scope and Methodology
            We interviewed staff and managers from the EPA’s Office of Water, EPA
            Regions 5 and 7, the Gulf of Mexico Program and Chesapeake Bay Program
            Office. We also interviewed staff and managers from the environmental and
            agricultural departments in Illinois, Indiana, Iowa, and Missouri. These states
            account for roughly 48 percent of the nitrogen and 43 percent of the phosphorus
            load in the Mississippi River Watershed. Additionally, we interviewed staff from
            the USGS, and other individuals knowledgeable about the hypoxia issue. We
            reviewed final state nutrient reduction strategies for Iowa and Ohio, and draft
            strategies for Illinois, Indiana, Kentucky, Louisiana, Minnesota, Mississippi,
            Missouri and Wisconsin (Arkansas and Tennessee had no public documents
            available for review) to determine how states plan to reduce nitrogen and
            phosphorus loadings flowing into waterways. To further our understanding of
            large watershed management programs, we reviewed more than 20 studies
            conducted by leading scientists, academic researchers and government officials
            studying watershed restoration programs.

            We conducted this performance audit from February 2013 to June 2014 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

Prior Audit Coverage
            EPA OIG Report No. 09-P-0223, EPA Needs to Accelerate Adoption of
            Numeric Nutrient Water Quality Standards, August 26, 2009:

            This report evaluated the effectiveness of the EPA’s actions to establish nutrient
            water quality standards in waters covered by the CWA. The OIG found that states
            had not been motivated to create these standards because implementing them is
            costly and often unpopular with various constituencies. Additionally, the EPA has
            not held the states accountable for milestone commitments nor had the agency
            adequately, until recently, used its CWA authority to promulgate water quality
            standards for States. The OIG recommended that the EPA select significant
            waters of national value which need numeric nutrient water quality standards to
            meet the requirements of the CWA, and set numeric water quality standards to
            meet CWA requirements for those waters. In addition, the OIG recommended
            establishing EPA and state accountability for adopting numeric nutrient standards
            for the rest of the Nation's waters; and metrics to gauge progress made by the
            States. The agency agreed with some but not all of the recommendations.




14-P-0348                                                                                      6
            EPA OIG Report No. 13-P-0271, Improved Internal Controls Needed in the
            Gulf of Mexico Program Office, May 30, 2013:

            The purpose of this audit was to determine whether the EPA’s Gulf of Mexico
            Program Office (GMPO) had established effective internal controls over program
            operations. The OIG found that two of GMPO’s performance measures are
            unrealistic in that they do not reflect what the office was set up to achieve. The
            two unrealistic measures involve the size of the hypoxic zone and the National
            Coastal Condition Report Index. Further, one strategic objective (environmental
            education) is not being measured. This occurred because GMPO had not
            performed an assessment of its strategic objectives and performance measures, as
            required by government-wide internal control standards. The OIG recommended
            that GMPO conduct a risk assessment of its strategic objectives and measures,
            and work with the Office of Water to adjust those measures to accurately reflect
            GMPO’s mission. The OIG also recommended that GMPO complete actions to
            establish an office Web content review process. The agency agreed with almost
            all of the recommendations.

            EPA OIG Report No. 08-P-0199, EPA Needs to Better Report Chesapeake Bay
            Challenges -- A Summary Report, July 14, 2008:

            This report summarized several evaluations conducted by the OIG in response to
            a congressional request. The OIG found that despite many noteworthy
            accomplishments by the Chesapeake Bay partners, the Bay remains degraded and
            new challenges are also emerging. Bay partners need to address uncontrolled land
            development, limited implementation of agricultural conservation, practices, and
            limited control over air emissions affecting Bay water quality. The EPA does not
            have the resources, tools, or authorities to fully address all of these challenges.
            Farm policies, local land development decisions, and individual life styles have
            huge impacts on the amount of pollution being discharged to the Bay.

            The OIG recommended that the EPA Administrator improve reporting to
            Congress and the public on the actual state of the Chesapeake Bay and actions
            necessary to improve its health. We also recommended that the Administrator
            develop a strategy to further engage local governments and watershed
            organizations to capitalize on their resources, tools, authorities, and information to
            advance the mission of the Chesapeake Bay, and provide the Chesapeake Bay
            Program Office with the opportunity to comment on proposed rulemaking related
            to pertinent air issues. The EPA concurred with all of the recommendations in this
            report.




14-P-0348                                                                                       7
                                  Chapter 2
       State Strategies Need Measurement Systems
            Reducing nutrients in the MARB is a significant challenge to the EPA and states.
            The EPA’s current approach to addressing hypoxia in the Gulf of Mexico is
            centered on individual state strategies to achieve long-lasting nutrient reductions.
            This could provide state environmental and agriculture agencies the potential
            opportunity to better collaborate and identify priority watersheds within their
            state. However, the focus of the state-driven strategies is on improving local water
            quality rather than reducing the size of the Gulf hypoxic zone. As of February
            2014 most of the Task Force states had not completed their strategies. Further, our
            review of draft and completed strategies indicates that few states are committing
            to specific nutrient reduction targets or timelines. Additionally, regional staff and
            state managers agree that monitoring is a challenge. However, without water
            quality monitoring data, the EPA will be unable to determine the impact of state
            nutrient reduction strategies on reaching basin-wide nutrient reduction goals.

Reducing Nutrients in the MARB Is a Significant Challenge

            Achieving reductions in nutrients that contribute to the Gulf of Mexico hypoxic
            zone poses a significant challenge to the EPA and states. This challenge is due to
            the vast size of the Mississippi River Watershed, the lack of CWA regulatory
            authority over nonpoint source pollution, and competing environmental priorities:

            Size of the MARB watershed: The MARB is the third largest watershed in the
            world. It covers 41 percent of the contiguous United States with over 1.2 million
            square miles. The 1.18 million farms in the MARB cover approximately 843,000
            square miles of the watershed.

            Limited regulatory authority over the most significant source of pollutants:
            Most of the nitrogen and phosphorus that contribute to the hypoxic zone come
            from activities that are largely unregulated by the CWA. The USGS estimates that
            agricultural sources contribute more than 70 percent of the nitrogen and
            phosphorus delivered to the Gulf (see Figure 3).

            Competing public policy priorities: The 2005 Energy Policy Act established the
            country's first renewable fuel mandate. This mandate was intended to reduce
            energy imports but it also leads to more land being put into corn production. This
            increases the amount of nutrients applied to the soil. A 2008 study predicted that
            meeting the U.S. goal of 15-36 billion gallons of renewable fuels by 2022 would
            increase the dissolved inorganic nitrogen load to the MARB by between 10 and




14-P-0348                                                                                       8
                 34 percent.6 The article states, “Examination of extreme mitigation options shows
                 that expanding corn-based ethanol production would make the already difficult
                 challenges of reducing nitrogen export to the Gulf of Mexico and the extent of
                 hypoxia practically impossible without large shifts in food production and
                 agricultural management.”

                 Figure 3: Sources of nutrients released into the Gulf of Mexico
                                Nitrogen                                                  Phosphorus
                                 4%
                           9%                                                              8%

                                                                                  12%

                   16%




                                              71%
                                                                                                   80%
                                                        Atmospheric deposition
                                                        Urban and population sources

                                                        Natural land

                                                        Agriculture (crops & livestock)

                 Source: OIG analysis of USGS data:
                 http://water.usgs.gov/nawqa/sparrow/gulf_findings/primary_sources.html.


State Nutrient Reduction Strategies Have Been Slow to Develop and
Are Missing Essential Components
                 The 12 states in the Mississippi-Atchafalaya River Basin with significant nutrient
                 contributions (also known as the 12 “Task Force states”) have been slow to
                 develop strategies despite the 2008 Task Force goal of strategy completion by no
                 later than 2013. Only two states, Iowa and Ohio, have a final strategy. To date,
                 only three states—Iowa, Minnesota and Wisconsin—had set nutrient reduction
                 goals. Of these three states, only Minnesota has a timeframe for meeting these
                 goals. Without both goals and timeframes, we believe the EPA and the states will
                 be unlikely to determine if these strategies are reducing nutrients in the MARB.

                 The EPA encouraged these 12 states to develop methods to track progress toward
                 achieving nutrient reduction goals, but these states have been reluctant to commit
                 to this. The OIG reviewed EPA regional comments on four state strategies that


6
 Donner, Simon D., and Christopher J. Kucharik. "Corn-based ethanol production compromises goal of reducing
nitrogen export by the Mississippi River." Proceedings of the National Academy of Sciences 105.11 (2008): 4513-
4518.



14-P-0348                                                                                                         9
            were available (Iowa, Minnesota, Ohio, and Wisconsin). The EPA regional staff
            requested that states:

                     Develop a timeframe for activities included in the strategy.
                     Plan for measuring progress of the strategy.
                     Request further analysis and support for determining the effectiveness of
                      best management practices.

            Our review of both draft and completed strategies indicates that most do not include
            nutrient reduction goals or timeframes to achieve nutrient reductions (see Table 1).
            Table 1: Status of state nutrient reduction strategies in Task Force states
                                  Final Strategy                                     Timeframe for achieving
             Task Force State         (Y/N)          Nutrient Reduction Goal              reduction goal
                Arkansas                    State has not reported when it will produce a draft or final
                 Illinois               N                       None                            None
                    Indiana             N                       None                            None
                   Iowa                 Y             45% N and P Reduction                     None
                 Kentucky               N                       None                            None
                 Louisiana              N                       None                            None
                                                     20% N Reduction; 35% P
                Minnesota               N                                                      By 2025
                                                             Reduction
                Mississippi             N                       None                            None
                 Missouri               N                       None                            None
                   Ohio                 Y                       None                            None
                Tennessee                   State has not reported when it will produce a draft or final
                Wisconsin               N             45% P Reduction Only                      None

            Source: OIG analysis of Task Force states Nutrient Reduction Strategies from the EPA website:
            http://water.epa.gov/type/watersheds/named/msbasin/nutrient_strategies.cfm.

            Of the 12 Task Force states, only Iowa and Minnesota established nitrogen and
            phosphorus reduction goals. Wisconsin only has phosphorus reduction goals. The
            other states do not have nutrient reduction goals. Minnesota’s draft strategy is the
            only one with a timeframe for achieving nutrient reductions. By 2025, the state set
            reduction goals of 20 percent for nitrogen and 35 percent for phosphorous. While
            this is a positive step, Minnesota accounts for just 2.9 percent of nitrogen and 2
            percent of phosphorus discharged to the Gulf of Mexico according to the USGS.
            The other 11 Task Force states contribute approximately 80 percent of the
            nitrogen and phosphorus reaching the Gulf of Mexico. Most of these states do not
            have nutrient reduction goals, and therefore have no timeframe for achieving
            nutrient reductions. Iowa and Wisconsin have goals, but do not have a timeframe
            for achieving these goals.

            The state and regional personnel we interviewed expressed a concern about their
            ability to monitor water quality and to a lesser extent, measure the progress of the
            strategies. They cited various reasons, including financial and technical
            constraints. Measurement and verification methods are complicated because



14-P-0348                                                                                                   10
            several factors need to be considered when determining the success of the state
            strategies.

            One important factor, according to USGS, is tracking changes in land
            management practices such as farm field drainage systems and conservation
            practices. Both the USGS and The National Academies have expressed the
            concern that currently there is no clear way to track this and therefore no way to
            determine the effectiveness of specific management practices in reducing nutrient
            loadings. Additionally, it is often difficult to draw a causal link between changes
            in land management practices and the resulting nutrient load because there is
            often a lag time. It could take years or even decades for the effects to be fully
            realized.

            Table 2 contains a summary of the status of monitoring and establishing
            milestones, according to state officials we interviewed. These four states account
            for roughly 48 percent of nitrogen and 43 percent of phosphorus flowing into the
            Gulf of Mexico.

            Table 2: Status of measures in four key Task Force states
             State        Status of monitoring and establishing milestones
             Illinois     Relies on data gathered from fertilizer sales to estimate nutrient loadings from
                          agricultural sources.
                          The Bureau of Water Chief stated that Illinois has an overall goal of 45%
                          reductions in phosphorous and nitrogen loadings.
             Indiana      While the 45% nutrient reduction goal is not planned for the state strategy, the
                          Chief of the Watershed Assessment Branch stated it is important to conduct
                          baseline monitoring before establishing any reduction goals for Indiana
                          Started including phosphorus monitoring requirements in NPDES permits and
                          Best Available Technology phosphorus limits of 1 mg/L in NPDES permits that
                          discharge up to 40 miles upstream of a lake.
             Iowa         While Iowa is committed to the Task Force’s 45 percent nutrient reduction goal,
                          the Director of the Iowa Nutrient Research Center voiced concerns about the
                          magnitude of change that is required to reach this goal.
             Missouri     The state has not yet established nutrient reduction goals and doesn't have
                          baseline data to gauge progress of reductions.
                          Requires all point sources that discharge more than 100,000 gallons per day to
                          monitor for nutrients.
            Source: OIG analysis of state-provided agricultural and environmental information.

            While the strategy-based approach shows promise for reducing nutrients and
            improving local water quality, progress in strategy development has been slow.
            Additionally, many of the strategies do not include reduction goals and
            milestones. This will make it difficult to hold states accountable for reductions.
            The states and regions expressed the need for a well-defined comprehensive
            monitoring program to measure the progress and efficacy of activities undertaken
            as part of state strategies.




14-P-0348                                                                                                    11
State Nutrient Reduction Strategies Have Promising Aspects
            State nutrient reduction strategies have several promising features and encourage
            collaboration between environment and agricultural stakeholders. We spoke with
            environmental and agricultural staff and managers in Illinois, Indiana, Iowa, and
            Missouri, which as stated above, account for roughly 48 percent of nitrogen and
            43 percent of phosphorus flowing into the Gulf of Mexico. Most expressed
            optimism that their strategies would result in a reduction of nutrient and
            improvements in local water quality. In addition, these four states have already
            identified, or have plans to identify priority watersheds. This is consistent with
            element #1 of the EPA’s Nutrient Framework Memo. Representatives from the
            environmental and agriculture departments in Illinois, Indiana and Iowa stated
            that they require or have plans to require phosphorus water quality-based limits or
            technology-based effluent limits in NPDES permits for point sources such as
            wastewater treatment facilities. An assistant director from the Missouri
            Department of Natural Resources stated that the state currently requires nutrient
            monitoring in selected NPDES permits, which could lead to phosphorus and
            nitrogen limits in the future.

            In Iowa, state agencies are collaborating with universities to design and
            implement the state strategy. The Iowa state legislature provided $1.5 million to
            establish a nutrient research center with three public universities. The center has
            funded 10 research projects in 2013-2014 to pursue science-based approaches to
            areas that include evaluating the performance of current and emerging nutrient
            management practices, and providing recommendations on implementing the
            practices and developing new practices. The Director of the Iowa Nutrient
            Research Center stated that there will be annual reporting on progress and on
            adoption of practices.

State Strategies’ Emphasis on Local Waterways Needs to be
Augmented with a Focus on the Larger Watershed

            The state environmental and agricultural program managers we interviewed
            explained that nutrient reduction efforts are currently aimed at improving water
            quality in local waterways. This is consistent with the Nutrient Framework Memo
            element #1, Prioritize watersheds on a statewide basis for nitrogen and
            phosphorus loading reductions. While an emphasis on local waters is vital for
            achieving the nation’s clean water goals, there is no assurance that individual state
            successes will result in the nutrient reductions needed for the watershed as a
            whole.

            In its 2013 Federal strategy, the Task Force stated that the primary priority of the
            document is “to provide focused and effective support for the development,
            refinement, and implementation of state nutrient reduction strategies.” As we noted
            in chapter 1, the Task Force’s first action item is to develop strategies that reduce
            nutrients “. . . ultimately to the Gulf of Mexico.” To efficiently reduce nutrient


14-P-0348                                                                                     12
            loadings affecting the hypoxic zone, the work of individual states will therefore
            need to be coordinated. We believe that over the long term, the EPA and its
            partners on the Task Force will need to promote a watershed-level focus for the
            state strategies in the MARB.

Conclusions
            Reducing the size of the hypoxic zone poses a significant challenge. While the
            Task Force states are in the process of developing and implementing nutrient
            reduction strategies, there is no requirement for states to ensure that they will fully
            implement them and that the practices implemented will achieve the intended
            watershed-level environmental goal. An ambitious environmental goal such as
            reducing the size of the hypoxic zone must be addressed by a well-designed and
            implemented plan that also recognizes the challenges for the EPA and states. This
            includes a uniform and comprehensive measurement and accountability system
            for setting goals and tracking progress at the state and watershed level. The EPA
            and other federal Task Force members need to lead as well as support states in
            developing a measurement system that includes essential baseline data and
            tracking progress toward goals using consistent measures.

Recommendation
            We recommend the Assistant Administrator for Water:

               1. Work with state and federal Task Force members in the Mississippi River
                  Watershed to develop and enhance monitoring and assessment systems
                  that will track the environmental results of state nutrient reduction
                  activities, including their contribution to reducing the size of the Gulf of
                  Mexico hypoxic zone.

Agency Comments and OIG Evaluation
            The agency agreed with our recommendation and presented corrective actions that
            address it. It outlined four activities that will enhance monitoring and systems for
            tracking environmental results of state nutrient reduction activities. These activities
            involve (1) improving measures of state reduction strategy performance, (2)
            reporting changes in nitrogen and phosphorous concentrations in MARB
            streams and rivers from the National Rivers and Streams Assessment, (3)
            establishing a shared reporting network of sites with long-term nutrient
            monitoring and streamflow records to analyze changes in nutrients and
            sediments over time, and (4) updating the 2008 Action Plan through its
            involvement in the Gulf Hypoxia Task Force Work Group. And notably, EPA
            plans to publish the results of these activities in a biennial report to Congress
            required under the newly enacted Harmful Algal Bloom and Hypoxia Research
            Control Amendmen ts Act of 2014. The first report will be completed in June 2015.
            Based on the Office of Water official response and a subsequent meeting we held



14-P-0348                                                                                       13
            with them, we consider the proposed corrective actions to be responsive and the
            recommendation is resolved.

            Appendix A contains the Office of Water’s response. We also received technical
            comments from the Office of Water which are incorporated into the report as
            appropriate.




14-P-0348                                                                                     14
                                  Status of Recommendation and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
     Rec.   Page                                                                                                Completion   Claimed    Agreed-To
     No.     No.                          Subject                           Status1      Action Official           Date      Amount      Amount

      1      13    Work with state and federal Task Force members             O       Assistant Administrator    6/30/15
                   in the Mississippi River Watershed to develop and                         for Water
                   enhance monitoring and assessment systems that
                   will track the environmental results of state nutrient
                   reduction activities, including their contribution to
                   reducing the size of the Gulf of Mexico hypoxic
                   zone.




1O= Recommendation is open with agreed-to corrective actions pending.
C = Recommendation is closed with all agreed-to actions completed.
U = Recommendation is unresolved with resolution efforts in progress.




14-P-0348                                                                                                                                      15
                                                                                       Appendix A


               Office of Water Response to Draft Report

                                             July 28, 2014

MEMORANDUM


SUBJECT:       Response to Office of Inspector General Draft Report/ Project No. OPE-FY13-0012,
               “EPA Needs to Work with States to Develop Strategies for Monitoring the Impact of
               State Activities on the Gulf of Mexico Hypoxic Zone” dated June 30, 2014

FROM:          Nancy K. Stoner
               Acting Assistant Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General


Thank you for the opportunity to respond to the issues and recommendation in the subject audit report.
Following is a summary of the Office of Water’s overall position, along with its position on the report
recommendation. We have provided high-level intended corrective actions and estimated completion
dates for that recommendation. For your consideration, we have included a Technical Comments
Attachment to supplement the response.

OFFICE OF WATER’S OVERALL POSITION:
The Office of Water concurs with the recommendation detailed in the report.

OFFICE OF WATER’S RESPONSE TO REPORT RECOMMENDATION: (See next page)




   14-P-0348                                                                                      16
Agreements
 No Recommendation          High-Level Intended Corrective Action(s)                            Estimated
  .                                                                                             Completion
                                                                                                by Quarter
                                                                                                and FY
 1   We recommend 1.        Biennial Report to Congress                                         June 30,
     that the Assistant                                                                         2015, and
     Administrator for      The Harmful Algal Bloom and Hypoxia Research Control                every other
     Water work with        Amendments Act of 2014 was enacted on June 30, 2014. It             year
     state and federal      requires the Administrator of the Environmental Protection          thereafter.
     Task Force             Agency, through the Hypoxia Task Force, to submit a progress
     members in the         report to appropriate congressional committees and the
     Mississippi River      President within 12 months after the Act’s enactment and
     watershed to           biennially thereafter.
     develop and            The report will describe the progress made by activities directed
     enhance                by the HTF and carried out or funded by the EPA, and the other
     monitoring and         federal and state members, toward attainment of the goals of the
     assessment             Gulf Hypoxia 2008 Action Plan. For example, it will assess the
     systems that will      progress made toward nutrient load reductions, the response of
     track the              the hypoxic zone, and water quality in the
     environmental          Mississippi/Atchafalaya River Basin.
     results of state
     nutrient reduction     Below are four current corrective action efforts that address the
     activities,            recommendation. The progress report can be used to provide
     including their        the status of these and future activities aimed at developing and
     contribution to        enhancing monitoring and assessment systems, with the goal of
     reducing the size      tracking the environmental results of state strategy
     of the Gulf of         implementation.
     Mexico hypoxic
     zone.             a)   Measuring progress on reducing nutrient loads
                            At the spring 2014 HTF Executive Session, the HTF state and
                            federal members agreed to identify a set of four to six common
                            measures that all HTF states would use in measuring progress
                            in implementing nutrient strategies. This would not preclude
                            states from developing additional measures to track strategy
                            implementation progress. We expect that the process will be
                            completed by the end of the calendar year.
                      b) Long term assessment of environmental conditions and
                         trends
                            The National Rivers and Streams Assessment (NRSA) is a
                            statistically-representative probability-based monitoring survey
                            undertaken every five years by EPA and its state and federal
                            partners. We plan to use data and analysis generated by the
                            NRSA surveys to report on the ecological condition of rivers
                            and streams in the MARB and its sub-basins, including nitrogen


     14-P-0348                                                                                        17
                    and phosphorus concentrations. These surveys are conducted
                    every five years to track long-term changes in water quality
                    across the country. A draft of the first NRSA survey was
                    released in 2013, and based on samples that were collected in
                    2008 and 2009. In 2016, we will report on changes in nitrogen
                    and phosphorous concentrations in MARB streams and rivers at
                    the Basin and sub-basin levels, based on data collected in
                    2013/2014. More information on NRSA and other National
                    Aquatic Resource surveys can be found on their website:
                    http://water.epa.gov/type/watersheds/monitoring/aquaticsurvey
                    _index.cfm
                c) Gathering existing site-specific monitoring from many
                   Basin sources into a single location
                    The HTF formed a MARB Monitoring Collaborative in 2012.
                    The United States Geological Survey is leading this effort, with
                    the participation of all HTF states and the EPA. The
                    Collaborative aims to establish a shared reporting network of
                    existing sites with long-term nutrient monitoring and
                    streamflow records. The intent is to use this data to analyze
                    changes in nutrients and sediments over time.
                d) Gulf Hypoxia Task Force Work Group
                    The HTF formed a work group at the Coordinating Committee
                    level in spring 2013 to make recommendations to revise the
                    Coastal Goal in the 2008 Hypoxia Action Plan and include
                    possible incremental measures for tracking nitrogen and
                    phosphorus load reduction activity in the Basin. The work
                    group will be making final recommendations to the HTF on this
                    issue at the 2014 fall HTF meeting.

CONTACT INFORMATION
If you have any questions regarding this response, please contact Joe Piotrowski, HTF
Coordinating Committee Co-Chair, Office of Water/Office of Wetlands, Oceans, and
Watersheds on (215) 814-5715. The alternate contact is Hazel Groman, Hypoxia Team Leader,
Office of Wetlands, Oceans and Watersheds/Assessment and Watershed Protection Division. Her
phone number is (202) 566-1219.
cc:   Michael H. Shapiro
      Marilyn Ramos
      Chris Orvin




14-P-0348                                                                               18
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Water




14-P-0348                                                                          19
